No. 20-1432

In the Supreme Court of the United States
UNITED STATES OF AMERICA, CROSS-PETITIONER
v.
MAINE COMMUNITY HEALTH OPTIONS, ET AL.
ON CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF AUTHORITIES

Cases:

Page

Barnes v. Gorman, 536 U.S. 181 (2002) ................................ 9
Maine Cmty. Health Options v. United States,
140 S. Ct. 1308 (2020) ....................................................... 3, 7
Sanford Health Plan v. United States,
969 F.3d 1370 (Fed. Cir. 2020) ............................. 2, 3, 4, 5, 9
Statutes:
Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, 124 Stat. 119 ...................................... 3
§ 1402, 124 Stat. 220-224 (42 U.S.C. 18071) .................... 7
Tucker Act, 28 U.S.C. 1491 ..................................................... 3

(I)

In the Supreme Court of the United States
No. 20-1432
UNITED STATES OF AMERICA, CROSS-PETITIONER
v.
MAINE COMMUNITY HEALTH OPTIONS, ET AL.
ON CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

As our brief in opposition in No. 20-1162 explains, the
Court should deny the petition in that case. 20-1162 Br.
in Opp. at 15-29. That petition seeks review of the court
of appeals’ determination that the damages of the plaintiffs (petitioners there, cross-respondents here) must be
offset by the amount of increased premium tax credits
they received “as a direct result of the government’s nonpayment of cost-sharing reduction [(CSR)] reimbursements.” Pet. App. 23. 1 In so ruling, the court correctly applied this Court’s precedent and well-settled contract-law
principles in determining that those amounts must be deducted from cross-respondents’ damages because they reflect the “benefit that resulted from the mitigation efforts
that [cross-respondents] in fact undertook.” Pet. App. 21.
Unless otherwise indicated, the term “Pet. App.” in this brief refers
to the appendix to the petition for a writ of certiorari in No. 20-1162.
1

(1)

2
As our conditional cross-petition in this case further
explains, however, if the Court grants review in
No. 20-1162 of the Federal Circuit’s damages-mitigation
determination, then review of the court’s antecedent liability ruling—which it adopted in Sanford Health Plan
v. United States, 969 F.3d 1370 (Fed. Cir. 2020), and applied in this case, Pet. App. 2, 12—would also be warranted. 20-1432 Pet. (Cross-Pet.) 13-21. The court of
appeals’ liability ruling in Sanford was expressly premised in part on the court’s damages determination in
this case. 969 F.3d at 1383. And the practical consequences of the court of appeals’ liability ruling—which
its damages-mitigation holding in this case largely
ameliorates—would be greatly magnified if that damages holding were set aside. Cross-Pet. 20-21.
Cross-respondents identify no sound reason why, if
the Court grants review of their petition (No. 20-1162)
addressing the damages determination, it should not
also grant, or at a minimum hold, the conditional crosspetition presenting the antecedent liability issue. They
acknowledge (but seek to downplay the fact) that, in addressing liability in Sanford, the court of appeals expressly relied in part on the court’s approach to damages in this case. Br. in Opp. 29. And cross-respondents
do not dispute, but instead underscore (id. at 31), the
magnitude of the sums the government would be required to pay if the liability ruling stands but the damages ruling is set aside—asserting (id. at 30) only that,
on cross-respondents’ own theory of damages (which
the court of appeals rejected), those redundant recoveries should not be viewed as duplicative. None of those
contentions provides a valid basis for the Court, if it
grants review on damages, to leave the court of appeals’
liability ruling in place without further review.

3
Cross-respondents devote most of their submission
to contending (Br. in Opp. 1-3, 15-28) that the court of
appeals’ liability ruling was compelled by this Court’s
decision in Maine Community Health Options v.
United States, 140 S. Ct. 1308 (2020), addressing a markedly different program under the Patient Protection
and Affordable Care Act (ACA), Pub. L. No. 111-148,
124 Stat. 119. Like the court of appeals, however, crossrespondents overstate that decision’s import here and
disregard important differences between the timelimited risk-corridors program at issue in Maine Community and the CSR payments at issue in this case. See
Cross-Pet. 17-20. In any event, if this Court concludes
that the damages issue presented in No. 20-1162 warrants review, then this Court should determine for itself
whether its decision in Maine Community extends to
these quite different circumstances. If the petition in
No. 20-1162 is granted, the conditional cross-petition
should be granted as well, or at a minimum held pending
the Court’s decision on the merits.
1. Cross-respondents acknowledge (Br. in Opp. 29)
that the Federal Circuit in Sanford expressly relied in
part on its damages determination in this case in concluding that the government may be liable in a suit for
money damages under the Tucker Act, 28 U.S.C. 1491,
for unpaid CSR payments. See Sanford, 969 F.3d at
1383; Cross-Pet. 15-16. Cross-respondents seek to minimize that aspect of the court’s Sanford decision by portraying it (Br. in Opp. 29) as confined to “one sentence”
of the panel’s opinion, and they invite this Court to disregard that express component of Sanford’s reasoning
as somehow irrelevant or unimportant to its liability
conclusion. That characterization is inaccurate.

4
The court of appeals in Sanford, which was decided
on the same day by the same panel as the decision below, stated that, in its view, precluding Tucker Act liability in these circumstances
is especially unwarranted because there is a separate
body of law that more precisely addresses the problem the government identifies. The premise of the
government’s argument is that the premium tax
credit provision can indeed lead to partial or complete offsetting of losses from non-reimbursement of
cost-sharing reductions and that the government
should not in effect be charged twice for a section
18071(c)(3) violation, once through raised premium
tax credits and again through a damages award under the Tucker Act. But a categorical displacement
of the availability of Tucker Act damages actions is
not necessary to avoid such overpayment. Damages
law deals in a more targeted way with matters such
as appropriate accounting for offsets and avoidance of
double recoveries, as we conclude today in Community
Health Choice, Inc. v. United States, No. 2019-1633,
and Maine Community Health Options v. United
States, No. 2019-2102 [i.e., the decision below].
That body of law accommodates the practical interaction of the two subsidy mechanisms without departing from the established principles governing
Tucker Act coverage of payment-mandating provisions as most recently set forth in Maine Community.
Sanford, 969 F.3d at 1383. Contrary to cross-respondents’
suggestion (Br. in Opp. 29), that extended discussion
cannot fairly be dismissed as insignificant to the court
of appeals’ analysis.

5
Cross-respondents’ contention (Br. in Opp. 29) that
the Court should disregard or discount that portion of
the Sanford court’s reasoning because its preceding
analysis of other points spanned more pages, see Sanford, 969 F.3d at 1378-1383, is unsound. The court in
Sanford had no need to expound further on its analysis
of damages precisely because the same panel’s simultaneous decision in this case, which the Sanford decision
cross-referenced, discussed that damages question at
length. See Pet. App. 12-33. Just as the decision below
relied without elaboration on Sanford’s analysis of liability, see id. at 2, 12, the decision in Sanford effectively
incorporated by reference the panel’s damages reasoning in this case, see 969 F.3d at 1383.
Cross-respondents’ only remaining reason (Br. in
Opp. 29) for writing off Sanford’s reliance on the court
of appeals’ damages determination in addressing liability is their speculation—based on their own view of the
merits of the liability issue—that the court of appeals
would have reached the same conclusion even without
regard to its damages analysis in this case. But that
point should not be left to conjecture. If this Court
elects to review the damages question in No. 20-1162,
the Court itself may determine that the damages and
liability issues are interdependent, and in addressing
the damages issue the Court should not be artificially
constrained to accept the Federal Circuit’s liability
analysis as a given.
2. Cross-respondents also do not meaningfully dispute that, if the court of appeals’ damages-mitigation
determination in this case were set aside, then its liability ruling would have substantial prospective practical
significance. See Cross-Pet. 20-21. As our conditional
cross-petition explains, without the court’s ruling that

6
insurers’ damages must be offset to reflect the increased premium tax credits they obtained from the
government, the government would confront massive
potential liability now and into the future. Cross-Pet.
20. The public fisc would face billions of dollars per year
in potential liability, even though most insurers have already benefitted from those increased tax credits, and
even though the government is projected to spend many
billions of dollars more subsidizing health insurance
through those tax credits than through CSR payments.
Cross-Pet. 20-21.
These sums implicated by the Federal Circuit’s liability ruling would warrant review of that ruling if its
effects were not ameliorated by the court’s damagesmitigation decision. Cross-respondents’ only rejoinder
(Br. in Opp. 30-31) is their assertion that the recoveries
they and other insurers would obtain if the court of appeals’ damages decision is set aside but its liability ruling is left unexamined would not amount to inappropriate “double recoveries.” Id. at 30 (citation omitted).
That assertion goes not to the practical importance of
the question presented in the conditional cross-petition,
but to the merits of the damages question raised in
cross-respondents’ own petition.
Moreover, although the basis of cross-respondents’
contention (Br. in Opp. 30) that money damages would
not be duplicative of increased premium tax credits is
somewhat unclear, it lacks merit however it is interpreted. To the extent the argument is a variation on
cross-respondents’ arguments below that increased
premium tax credits were not the direct result of their
own mitigation efforts or constitute a collateral source
of recovery to which mitigation principles should not apply, the court correctly rejected those arguments, see

7
Pet. App. 27-29, and cross-respondents have not sought
review in their petition of that aspect of its decision, see
20-1162 Br. in Opp. at 21, 24-25. To the extent the claim
is instead a reformulation of the principal argument in
the petition that, in light of Maine Community, supra,
Section 1402 of the ACA, 42 U.S.C. 18071, should be interpreted to foreclose offsets altogether, that contention lacks merit for the reasons set forth in our brief in
opposition to their petition. 20-1162 Br. in Opp. at
21-24; see Pet. App. 12 (recognizing that Maine Community did not resolve the damages-mitigation issue);
see also id. at 23-26 (noting that cross-respondents “appear[ed] not to dispute that if the elimination of [CSR]
payments directly triggered increased premium tax
credits, an offset would be appropriate under a contract
theory,” and rejecting their argument that premium tax
credits were not a direct result of their mitigation efforts in response to the cessation of CSR payments).
Cross-respondents’ effort to minimize the importance of
the question presented in the conditional cross-petition
based on merits arguments the court of appeals properly
rejected thus is unpersuasive on its own terms.
3. Cross-respondents principally contend (Br. in
Opp. 1-3, 15-28) that the conditional cross-petition should
be denied based on their view that this Court’s decision
in Maine Community, supra, compelled the court of appeals’ liability conclusion. The government’s conditional
cross-petition explains in detail why that view is unsound. Cross-Pet. 17-20. To be sure, the government has
acknowledged that Maine Community forecloses certain arguments that the government advanced in the litigation below—which the government withdrew below
and has not advanced in this Court. Cross-Pet. 17. But
cross-respondents, like the court of appeals, overstate

8
Maine Community’s scope by erroneously discounting
significant differences between the temporary riskcorridors program at issue in that case and the CSR payments program here. Cross-Pet. 17-20.
In particular, cross-respondents err in contending
(Br. in Opp. 18-28) that Maine Community’s holding
extends to this context where the ACA’s structure itself
already provides insurers a built-in mechanism to recover their costs of reducing their cost-sharing in the
event the government did not make CSR payments.
Cross-Pet. 19-20. The predictable and predicted effect
of the loss of CSR payments was the very increase in
premiums that occurred, which by operation of the
ACA’s interlocking provisions yielded a massive increase in premium tax credits paid directly to insurers,
including increased credits for non-silver-plan enrollees. Ibid. And although cross-respondents assert (e.g.,
Br. in Opp. 27 n.2) that insurers set annual premiums
“before Congress decided whether to appropriate funds
to” make CSR payments, insurers (including crossrespondents) set their premiums for 2018 on the express
assumption that direct CSR payments would cease. See
20-1162 Br. in Opp. at 7-8 & n.2, 26-27.
Maine Community does not lead to the conclusion
that Congress intended an unstated money-damages
remedy in this context. And if the only options available
to Congress had been (A) to allow the ACA’s structure
to operate by making insurers whole (and more)
through increased premium tax credits, or (B) to provide an unstated money-damages remedy without any
offset for insurers’ own successful mitigation efforts, it
is especially unlikely that Congress would have elected
the latter approach. That result is even less likely in
light of this Court’s and the court of appeals’ precedent

9
recognizing that, where a statute such as the CSR provision imposes an obligation but provides no remedial
framework, courts should look to background principles
of contract-law remedies, including mitigation of damages, in ascertaining the contours of any implied remedy. See Pet. App. 14-15 (discussing, inter alia, Barnes
v. Gorman, 536 U.S. 181, 186-189 (2002)).
Cross-respondents express surprise (Br. in Opp.
21-23) that the applicability of damages-mitigation
principles might bear on the liability analysis. But the
court of appeals recognized that those analyses are connected. See Sanford, 969 F.3d at 1383. Interpreting a
statute to provide insurers who do not receive contemplated subsidies both a statutory mechanism to recover
the value of those subsidies and a separate, implied
money-damages remedy to recover the same amounts
would create a considerable incongruity. That incongruity is much less stark, however, if those alternative paths
operate in a complementary rather than duplicative
manner, such that an insurer cannot recover as damages
sums that it has already recovered from the government
through the statutory avenue—here, by obtaining increased premium tax credits. The court of appeals did
not view those parallel avenues to be problematic because it viewed the implied damages remedy and premium tax credits as providing “alternative way[s] for an
insurer to try to obtain money (from the federal government) to offset the loss caused by” the failure to make
CSR payments. Ibid. Those avenues would not be “alternative[s],” ibid., but duplicative, if the damages remedy were not subject to offset for prior recoveries.
The Court in Maine Community did not confront a
statutory scheme that not only enabled, but in its design
contemplated, that insurers who did not receive expected

10
subsidies could obtain those same amounts (and more)
through a mechanism built in to the ACA’s structure. To
the contrary, the insurer-plaintiffs there (including
cross-respondent Maine Community Health Options
here) were at pains to emphasize that, at the time Congress eliminated the only available funding source to
make retroactive risk-corridors payments, insurers
could not recoup unpaid risk-corridor payments by raising premiums because those premiums had already been
set and the policies sold. Cross-Pet. 18 (citing briefing).
Cross-respondents now assert (Br. in Opp. 26) that
insurers did subsequently raise their premiums. 2 To
whatever extent premium increases occurred, however,
they bear little resemblance to the premium increases
at issue here, which enabled insurers to take advantage
of built-in features of the ACA’s structure to obtain
more-than-offsetting increases in tax credits in real
time, and which the Department of Health and Human
Services had anticipated years earlier would occur.
20-1162 Br. in Opp. at 4. Cross-respondents’ assertion
that these cases are on all fours with Maine Community does not withstand scrutiny.

Contrary to cross-respondents’ characterization, the government’s brief in Maine Community did not represent that the cessation of risk-corridors payments “did ‘cause[ ] premiums to increase.’ ” Br. in Opp. 26 (quoting Gov’t Br. at 49, Maine Cmty., supra (No. 18-1023 et al.)) (emphasis omitted; brackets in original); cf.
Gov’t Br. at 49, Maine Community, supra (No. 18-1023 et al.) (stating that, “[i]f, as petitioners posit, those congressional funding decisions caused start-up insurers to fail and caused premiums to increase, see Moda Br. 59-60, then Congress was fully accountable”).
2

11
* * * * *
For the foregoing reasons and those stated in the conditional cross-petition for a writ of certiorari, if the petition in No. 20-1162 is granted, the conditional crosspetition for a writ of certiorari should be granted or be
held pending the Court’s decision on the merits in
No. 20-1162.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

JUNE 2021

